DODIG-2012-073                            April 10, 2012




       Natick Contracting Division's Management of
      Noncompetitive Awards Was Generally Justified
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/ 13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System – Next Generation
J&A                           Justification and Approval
NCD                           Natick Contracting Division
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE 

                                     4800 MARK CENTE R DRIVE 

                                  ALEXANDR IA, VIRG INIA 22350-1 500 





                                                                                  April 10,2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Natick Contracting Division' s Management of Noncompetitive Awards Was
          Generally Justified (Report No. DODIG-2012-073)

We are providing this report for your infOlmation and use. The U.S. Army Contracting
Command - Aberdeen Proving Ground, Natick Contracting Division, contracting personnel
adequately justified contracts as sole source for 21 of the 22 noncompetitive contracts we
reviewed . However, contracting personnel did not provide adequate justification for the
noncompetitive award of one contract. We considered management comments on a draft of the
report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive
7650.3 and left no unresolved issues. Therefore, we do not require any additional
comments.

We appreciate the comiesies extended to the staff. Please direct questions to me at (703)
604-9077 (DSN 664-9077).




                                              ';';    Yf~~,i{. UV~
                                                                         ,,}.    ~


                                           9: Jac    line L. Wicecarver
                                              ASSistant Inspector General
                                              Acquisition and Contract Management
             Report No. DODIG-2012-073 (Project No. D2011-D000CG-0228.001)               April 10, 2012


               Results in Brief: Natick Contracting 

               Division’s Management of Noncompetitive 

               Awards Was Generally Justified 

What We Did                                             statements required by Federal Acquisition
                                                        Regulation (FAR) 5.207, interested sources may
Our objective was to determine whether DoD
                                                        not have been aware of actions they could have
noncompetitive contract awards were properly
                                                        taken to compete for the awards.
justified as sole source. This is the second in a
                                                        However, NCD contracting personnel generally
series of reports on DoD contracts awarded
                                                        documented compliance with content
without competition and includes contracts
                                                        requirements in FAR 6.303-2, obtained approval
issued by the U.S. Army Contracting Command
                                                        from the proper official as required by
- Aberdeen Proving Ground, Natick Contracting
                                                        FAR 6.304 for the 22 J&As, and had an
Division (NCD). We reviewed 22 contracts,
                                                        approved J&A before awarding
valued at about $31.6 million, that NCD
                                                        21 noncompetitive contracts as required by
contracting personnel awarded in FY 2009 and
                                                        FAR 6.303.
FY 2010.

What We Found                                           What We Recommend
                                                        We recommend that the Executive Director,
NCD contracting personnel adequately justified
                                                        U.S. Army Contracting Command - Aberdeen
contracts as sole source for 21 of the
                                                        Proving Ground: 
22 noncompetitive contracts. However,
                                                           	 review the performance of the
contracting personnel did not provide adequate
                                                               contracting officer who awarded the
justification for the noncompetitive award of
                                                               noncompetitive contract without legal
one contract, valued at about $265,000. This
                                                               approval to determine whether
occurred because contracting personnel did not
                                                               administrative action is warranted,
conduct market research or adequately discuss
in the justification and approval (J&A) why                	 emphasize the importance of obtaining
market research was not conducted and did not                  the appropriate approvals and properly
obtain approval of the J&A before awarding                     justifying future noncompetitive
the noncompetitive contract.                                   contracts, and
In addition, NCD contracting personnel did not             	 provide contracting personnel training or
include one or both of the statements required in              a memorandum on including the
10 of the 22 contracts to ensure that interested               statements required by FAR 5.207 in the
sources were aware of actions they can take if                 synopsis of contract actions made under
interested in competing for noncompetitive                     FAR 6.302.
contracts because NCD contracting personnel
did not follow applicable guidance.                     Management Comments and
As a result, NCD contracting personnel may              Our Response
have been able to award the noncompetitive              Army Contracting Command-Redstone Arsenal,
contract using full and open competition and            responding through the Executive Director,
award the contract at a lower price if additional       Army Contracting Command-Aberdeen Proving
market research was conducted and multiple              Ground, agreed with all three of our
sources were available to meet the                      recommendations. We consider the Director’s
Government’s needs. Also, because NCD                   comments to be responsive. No further
contracting personnel did not include the               comments are required.
                                                    i
    Report No. DODIG-2012-073 (Project No. D2011-D000CG-0228.001)    April 10, 2012

Recommendations Table

      Management               Recommendations             No Additional Comment
                              Requiring Comment                  Required
Executive Director, U.S.                                1, 2, 3
Army Contracting Command
- Aberdeen Proving Ground




                                        ii
Table of Contents

Introduction	                                                                  1


      Objective                                                                1

      Background                                                               1

      U.S. Army Contracting Command - Aberdeen Proving Ground, NCD             1

      Review of Internal Controls                                              2


Finding. NCD’s Contract Awards Were Generally Justified as Sole Source         3


      NCD Adequately Supported 21 Sole-Source Determinations                   3

      NCD Contracting Personnel Awarded One Noncompetitive Contract Without 

            Proper Justification                                               9

      NCD Contracting Personnel Did Not Comply With FAR 5.207 for 

            10 Noncompetitive Contracts                                       11 

      Conclusion                                                              12 

      Recommendations, Management Comments, and Our Response                  13 


Appendices

      A. 	Scope and Methodology                                               15 

             Universe and Sample Information                                  15 

             Review of Documentation and Interviews                           16 

             Use of Computer-Processed Data                                   16 

             Use of Technical Assistance                                      17 

             Prior Coverage                                                   17 

      B. 	Federal Acquisition Regulation Criteria                             19 

             FAR Subpart 6.3, “Other than Full and Open Competition”          19 

             FAR Subpart 5.2, “Synopses of Proposed Contract Actions”         20 

             FAR Part 10, “Market Research”                                   21 

      C. Noncompetitive Contracts Reviewed	                                   22 

      D. Adequate Justification and Approvals	                                25 

      E. Market Research Conducted	                                           27 


Management Comments

      Department of the Army	                                                 33 

Introduction
Objective
Our objective was to determine whether DoD noncompetitive contract awards were
properly justified as sole source at U.S. Army Contracting Command - Aberdeen Proving
Ground, Natick Contracting Division (NCD) in Natick, Massachusetts. This report is the
second report on DoD contracts awarded without competition. See Appendix A for the
scope and methodology and prior coverage related to the objective.

Background
Full and open competition is the preferred method for Federal agencies to award
contracts. Section 2304, title 10, United States Code, “Contracts: Competition
Requirements,” and section 253, title 41, United States Code, “Competition in
Contracting Act of 1984,” require contracting officers to promote and provide for full and
open competition when soliciting offers and awarding contracts. Promoting competition
in Federal contracting presents the opportunity for significant cost savings. In addition,
competitive contracts can help improve contractor performance, prevent fraud, and
promote accountability for results.

Contracting officers may use procedures other than full and open competition under
certain circumstances; however, each contract awarded without providing for full and
open competition must conform to policies and procedures in the Federal Acquisition
Regulation (FAR) Subpart 6.3, “Other Than Full and Open Competition.” FAR
Subpart 5.2, “Synopses of Proposed Contract Actions,” establishes policy to ensure
agencies make notices of proposed contract actions available to enhance competition.
FAR Part 10, Market Research,” provides policies and procedures for conducting market
research to arrive at the most suitable approach for acquiring, distributing, and supporting
supplies and services. See Appendix B for additional information on FAR subpart 6.3,
FAR subpart 5.2, and FAR part 10.

U.S. Army Contracting Command - Aberdeen Proving
Ground, NCD
According to the NCD Web site, the U.S. Army Contracting Command - Aberdeen
Proving Ground, NCD, is a division within the Army Contracting Command, U.S. Army
Materiel Command, and is a full-service contracting organization that manages integrated
acquisitions from basic research through production. The Web site states that NCD’s
mission is to provide superior products and technologies that protect, sustain, and
improve the quality of life for the warfighter; maintain a Total Army Quality acquisition
program that selects the best sources and ensures the best value for the Government; and
provide similar functions for other services and customers. NCD contracts for major
soldier support items and services ranging from uniforms to traumatic brain injury
research.


                                             1

NCD contracting personnel awarded 469 C and D type contracts 1 with an obligated
value 2 of $724,856,778 during FY 2009 and FY 2010. We queried the Federal
Procurement Data System-Next Generation (FPDS-NG) and identified 91 C and D type
contracts that NCD contracting personnel awarded in FY 2009 and FY 2010 as
noncompetitive contracts. We selected a nonstatistical sample of 36 noncompetitive
contracts totaling about $49 million to review. We excluded 14 contracts from our
sample of 36 contracts because:
    •	 6 contracts were justified as noncompetitive under FAR 6.302-6, “National
        Security,” and we did not review contracts awarded under this exception,
    •	 3 contracts used the authority cited at FAR Subpart 13.5, “Test Program for
        Certain Commercial Items,”
    •	 2 contracts were competed,
    •	 1 contract was miscoded and should have been Small Business Innovative
        Research Program,
    •	 1 contract file NCD contracting personnel could not locate, and
    •	 1 contract was valued below the threshold requiring market research and

        justification documentation.


After we excluded the 14 contracts, we reviewed 22 contracts with an obligated value of
about $29.9 million (the combined base award, excluding options, was valued at about
$31.6 million). See Appendix C for additional details on the noncompetitive contracts
we reviewed.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. NCD’s internal controls over
its processes for issuing the noncompetitive contract awards we reviewed were effective
as they applied to the audit objective.




1
  Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “Contracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD,” and D type contracts as “Indefinite delivery contracts.”
2
  Data obtained in FPDS-NG is reported on an individual action basis (that is, a single modification). As a
result, we combined all actions identified for a given contract to determine the number of contracts awarded
during FY 2009 and FY 2010 and their respective obligated amounts.

                                                     2

Finding. NCD’s Contract Awards Were
Generally Justified as Sole Source
NCD contracting personnel adequately justified contracts as sole source for 21 of the
22 noncompetitive contracts; however, contracting personnel did not provide adequate
justification for the noncompetitive award of 1 contract. Specifically, for the
noncompetitive contract, valued at about $265,000, contracting personnel did not conduct
market research or adequately discuss in the justification and approval (J&A) why market
research was not conducted and did not obtain approval of the J&A before awarding
the noncompetitive contract.

In addition, NCD contracting personnel did not include one or both of the statements
required in 10 of the 22 contracts to ensure that interested sources are aware of actions
they can take if interested in competing for noncompetitive contracts because they did not
follow applicable guidance.

As a result, NCD contracting personnel may have been able to award the noncompetitive
contract using full and open competition at a lower price if additional market research
was conducted and multiple sources were available to meet the Government’s needs.
Also, because NCD contracting personnel did not follow applicable guidance in
FAR 5.207, “Preparation and Transmittal of Synopses,” interested sources may not have
been aware of actions they could have taken to compete for the awards.

However, NCD contracting personnel generally documented compliance with content
requirements in FAR 6.303-2, “Content,” and obtained approval from the proper official
as required by FAR 6.304, “Approval of the Justification,” for the 22 J&As. In addition,
NCD contracting personnel had an approved J&A before awarding 21 noncompetitive
contracts as required by FAR 6.303, “Justifications.” 3

NCD Adequately Supported 21 Sole-Source
Determinations
NCD contracting personnel adequately supported the use of other than full and open
competition in the contract file for 21 contracts. NCD contracting personnel did not
always document all the required elements of FAR 6.303-2 in the J&As; however,
personnel provided enough information in the J&As to justify permitting other than full
and open competition. NCD contracting personnel obtained approval from the proper
official for all 22 J&As and 21 J&As were approved before contract award. FAR 6.302,
“Circumstances Permitting Other Than Full and Open Competition,” lists the seven
exceptions permitting contracting without full and open competition. A contracting


3
 Three of the noncompetitive contracts were awarded under FAR 6.302-2, “Unusual and Compelling
Urgency.” Approval of the J&A before contract award is not required for noncompetitive contracts
awarded under FAR 6.302-2; however, the three awarded by NCD contracting personnel had an approved
J&A before the contract award.

                                                 3

officer must not begin negotiations for or award a sole-source contract without providing
full and open competition unless the contracting officer justifies the use of such action in
writing, certifies the accuracy and completeness of the justification, and obtains approval
of the justification.

NCD contracting personnel appropriately documented the market research conducted or
provided adequate justification in the contract file when market research was not
conducted for 20 of the 22 contracts. Of the 22 contracts, 1 contract lacked
documentation; however, this did not result in an inadequate sole-source determination.
NCD contracting personnel performed market research techniques identified in
FAR Part 10, “Market Research,” such as conducting internet and database inquiries and
contacting individuals in the industry for 16 of the 20 contract awards that had adequate
support documented in the contract file. NCD contracting personnel did not conduct
market research for 5 of the 22 contracts; however, contracting personnel provided
adequate documentation in the contract file to support 4 of the 5 determinations.

Of the 22 noncompetitive contracts we reviewed, NCD contracting personnel did not
adequately justify 1 contract, W911QY-10-C-0154, as sole-source. The noncompetitive
contract was not justified because NCD contracting personnel did not conduct market
research or adequately discuss in the J&A why market research was not conducted and
did not obtain approval of the J&A before awarding the noncompetitive contract.

NCD Contracting Personnel Generally Met J&A Content
Requirements
NCD contracting personnel generally documented compliance with content requirements
in the 22 J&As. FAR 6.303-2 identifies the minimum information that must be included
in a J&A. FAR 6.303-2 requires information such as a description of the supplies or
services required to meet the agency’s needs, the estimated value, and the statutory
authority permitting other than full and open competition. NCD contracting personnel
included all the required elements as outlined in FAR 6.303-2 in the J&As for 11 of the
22 J&As. Although NCD contracting personnel did not document all the required
elements of FAR 6.303-2 in 11 of the J&As, NCD contracting personnel provided
enough information in 10 of the 11 J&As to justify executing the contracts without full
and open competition. See Table 1 for the specific contracts that did not meet all J&A
content requirements.




                                             4

               Table 1. J&As Missing FAR Content Requirements
    Contract       J&A Addresses Requirements of        Market Research
                     FAR Subpart 5.2, “Publicizing   Requirements Not Fully
                        Contract Actions,” or the           Addressed
                               Exception
W911QY-09-C-0138                  No
W911QY-10-C-0165                  No
W911QY-10-C-0101                  No
W911QY-09-C-0098                  No
W911QY-10-C-0231                  No
                                                     Description or results not
W911QY-10-C-0154                  No                         included
W911QY-09-C-0076                                      Description not included
W911QY-10-C-0194                                      Description not included
W911QY-09-C-0007                                      Description not included
W911QY-09-C-0020                                      Description not included
W911QY-09-C-0008                                      Description not included

    NCD Contracting Personnel Generally Met J&A Content
    Requirements With Minor Documentation Omissions
    NCD contracting personnel generally met all of the FAR 6.303-2 content requirements.
    NCD contracting personnel did not meet all of the content requirements for six contracts
    due to minor documentation omissions. NCD contracting personnel did not cite, as
    required by FAR 6.303-2, the specific exception to publicizing the proposed contract
    action in the J&A for one of the six contracts. FAR 6.303-2(b)(6) requires the J&A to
    include which exception under FAR 5.202, “Exceptions,” applies when a contract notice
    is not publicized. The J&A for contract W911QY-10-C-0165 did not cite an exception
    from FAR 5.202; however, the J&A cited FAR 6.302-2, as the reason for awarding the
    contract using other than full and open competition. FAR 5.202(a)(2) is the exception
    that permits a proposed contract action under the authority of FAR 6.302-2 to be awarded
    without issuance of a synopsis. We consider this to be a documentation omission
    because the support is present in the J&A for the exception to posting a synopsis even
    though the specific FAR 5.202 exception was not stated.

    NCD contracting personnel did not state, as required by FAR 6.303-2(b)(6), whether a
    notice was or will be publicized as required by FAR Subpart 5.2, “Synopses of Proposed
    Contract Actions,” in the J&A for five of the six contracts. Four of the five J&As cited
    FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services Will
    Satisfy Agency Requirements.” The fifth J&A cited FAR 6.302-3, “Industrial
    Mobilization; Engineering, Developmental, or Research Capability; or Expert Services,”
    as the reason for awarding the contract using other than full and open competition and did
    not meet the criteria for an exception under FAR 5.202. NCD contracting personnel
    provided evidence in the contract files that synopses for each of the five contracts were

                                                5

publicized, as required by FAR subpart 5.2. We consider this to be a documentation
omission because the support is present in the contract file that the five contract actions
were publicized as required by FAR subpart 5.2 even though it is not stated in the J&A.

Each of these six instances resulted from documentation omissions and did not result in
inadequate noncompetitive awards; therefore, we do not consider these problems to be
systemic and are not making a recommendation to address these problems. We are also
not making a recommendation to address the J&A content deficiencies as the J&A
template should decrease the number of J&A content omissions. See the discussion on
the J&A template. Also, see Appendix D for additional information on justifications and
J&A content and approvals.

NCD Contracting Personnel Generally Met J&A Market Research
Content Requirements
NCD contracting personnel adequately documented market research in 16 J&As as
required by FAR 6.303-2. NCD contracting personnel partially documented market
research in the J&A as required by FAR 6.303-2 for 5 of the 22 J&As. NCD contracting
personnel included other information for five of the six contract files that adequately
described the market research conducted and the subsequent results or adequately
explained why market research was not conducted. FAR 6.303-2 requires that the J&A
include a description and the results of the market research conducted or, if market
research was not conducted, a reason it was not conducted. Because NCD contracting
personnel provided additional support elsewhere in the contract file to support the market
research for five of the six contracts, we do not consider the problem to be systemic and
are not making a recommendation to address the missing FAR 6.303-2 requirements. See
Appendix E for additional information on the market research NCD personnel conducted.

Natick Issued a J&A Template to Decrease J&A Problems
In April 2011, NCD contracting personnel developed a J&A template to improve
uniformity as well as an electronic contract file template to help standardize electronic
contract files which should help to decrease the number of J&A deficiencies. The NCD
contracting personnel developed a standardized template for all contracting personnel to
use during the preparation of their J&A approval documentation. The template helps to
ensure that the required information is being included in the J&A. The template is an
Adobe portable document format file that includes fields where the contracting personnel
can input the required information as well as electronic signature boxes for contracting
personnel to sign the J&A electronically. NCD contracting personnel can click on a
circle beside each form field that will bring up information on what should be included in
that section. The template includes preloaded information required by FAR 6.303-2 that
is common to all NCD’s J&As such as the name of the agency and contracting activity
and a statement that the document is a “Justification for other than full and open
competition.” In addition, NCD contracting personnel developed the electronic contract
template to provide a standardized guidance and storage medium for contract files to be
managed electronically. We are not making a recommendation to address the J&A
content deficiencies as the J&A template should decrease the number of J&A content
omissions.

                                              6

NCD Contracting Personnel Generally Applied the Sole-Source
Authority Cited
NCD contracting personnel generally applied the cited authority permitting other than
full and open competition in 21 of 22 J&As. NCD contracting personnel awarded:
    •	 17 contracts citing the authority of FAR 6.302-1, “Only One Responsible Source
        and No Other Supplies or Services Will Satisfy Agency Requirements,”
    •	 3 contracts citing the authority of FAR 6.302-2, “Unusual and Compelling 

        Urgency,” and

    •	 2 contracts citing the authority of FAR 6.302-3, “Industrial mobilization; 

        engineering, developmental, or research capability; or expert services.”


For 16 of the 17 contracts that cited the authority of FAR 6.302-1, contracting personnel
provided adequate rationale in the J&A as to why only one contractor could provide the
required product or service and why only that product or service could meet the
Government’s requirements. Although NCD contracting personnel cited
FAR 6.302-1 authority for 1 of the 17 contracts, we do not consider the authority to be
appropriately applied because the contracting officer did not properly justify the award as
sole source and additional sources may have been capable of meeting the Government’s
requirements.

For each of the three contracts that cited the authority of FAR 6.302-2, NCD contracting
personnel provided adequate rationale in the J&A that supported the unusual and
compelling urgency of the acquisition. For contract W911QY-09-C-0020, the J&A
explained that Flame Resistant Army Combat Uniforms were needed to meet immediate
requirements for deploying soldiers into “Areas of Operation” due to the increased threat
to soldiers from improvised explosive devices during the past 24 months.
FAR 6.302-2(c) and (d) impose further limitations on contract awards citing this
authority. For each of the three contracts, NCD contracting personnel provided adequate
rationale in the J&A that supported why only one contractor and one product or service
could have met the Government’s requirements. Contracting personnel are required by
FAR 6.302-2(c) to request offers from as many potential sources as practicable. For
contract W911QY-09-C-0020, the contracting officer explained in the J&A that the
contractor is only one of two firms capable of meeting this urgent requirement in terms of
delivery schedule and quality. NCD contracting personnel planned to award the second
contractor a one-time, firm-fixed-price contract to get the 80,000 Flame Resistant Army
Combat Uniforms needed. Contracting personnel are required by FAR 6.302-2(d) to
limit the period of performance of the contract.

NCD contracting personnel awarded two contracts that cited the authority of
FAR 6.302-3. For each of the two contracts, NCD contracting personnel provided
adequate rationale in the J&A that supported using FAR 6.302-3. For contract W911QY­
09-C-0098, the J&A explained that a contract was needed in support of the U.S. Army
Research Institute of Environmental Medicine. FAR 6.302-3(a) allows the use of this
authority to establish or maintain an essential research capability to be provided by a
federally funded research and development center. The J&A states that FY 2009 Defense
Health Program Research Development Test and Evaluation funds will be used to fund

                                             7

the contract. FAR 6.302-3(b) goes on to state the authority may be appropriate to
establish or maintain an essential capability for theoretical analyses and in any field of
science or technology. The J&A states that the contractor will analyze the relationship
between physical activity and the occurrence of stress fracture in elite male soldiers.

NCD Contracting Personnel Obtained Approval From the
Appropriate Officials for Noncompetitive Contract Awards
NCD contracting personnel obtained approval from the appropriate official on the
22 J&As. FAR 6.304 defines proper approval authority at various thresholds for the
estimated dollar value of the contract. Between FY 2009 and FY 2010, the FAR
authorized the procuring contracting officer to provide the final approval for proposed
contract actions up to $550,000 and for the competition advocate of the procuring activity
to provide the final approval for proposed contract actions more than $550,000 but not
exceeding $11.5 million. The contracting officer approved the 10 J&As that had an
estimated value of $550,000 or less. The competition advocate approved the 12 J&As
valued at more than $550,000 but not exceeding $11.5 million. We did not review any
contracts in our sample with J&A values that required approval higher than the
competition advocate.

For 1 of the 22 J&As, the contracting officer, who was the appropriate approving official,
approved the J&A; however, the contracting officer approved the J&A after the contract
award. FAR 6.303 permits the contracting officer to prepare the J&A and have it
approved within a reasonable time after the contract award for contracts awarded under
FAR 6.302-2; however, this contract was awarded under FAR 6.302-1. According to the
NCD contracting officer, the Office of Chief Legal Counsel misplaced the J&A and a
new J&A was prepared and approved. An attorney advisor from the Office of Chief
Legal Counsel stated he refused to sign the J&A because he was dissatisfied with the
market research conducted. Because the contracting officer and the attorney advisor
provided differing accounts of the approval process, questions remain concerning
whether the contracting officer took appropriate action to award the contract as
noncompetitive. According to the competition advocate at NCD, a contracting officer
can proceed with a contract award, although not encouraged to do so, even if the Office
of Chief Legal Counsel does not review and sign the J&A. See Appendix C for
additional information on justifications and J&A content and approvals.

NCD Generally Documented the Market Research Efforts and the
Results
NCD contracting personnel appropriately documented the market research conducted or
provided adequate justification in the contract file when market research was not
conducted for 20 of the 22 contracts reviewed. Contracting personnel included
documentation to show compliance with FAR part 10 in the contract file to support 20 of
the 22 sole-source determinations. FAR part 10 states that agencies should document the
results of market research in a manner appropriate to the size and complexity of the
acquisition. FAR 10.002, “Procedures,” states the extent of market research will vary,
depending on such factors as urgency, estimated dollar value, complexity, and past
experience. NCD contracting personnel performed market research techniques identified
                                              8

in FAR part 10 for 16 of the 20 contract awards that had adequate support documented in
the contract file. For example, NCD contracting personnel conducted internet and
database inquiries or contacted knowledgeable individuals in industry for the
16 noncompetitive awards that had award values ranging from $119,059 to about
$8 million. NCD contracting personnel documented the techniques performed and the
subsequent results in each of the 16 contract files.

NCD contracting personnel did not conduct market research in 5 of the 22 instances;
however, contracting personnel provided adequate documentation in the contract file to
support 4 of the 5 determinations. For example, NCD contracting personnel did not
conduct market research for contract W911QY-09-D-0008 because the contractor
manufactures the items to be serviced and has not made the propriety data available to
other companies; therefore, no other manufacturer exists. NCD contracting personnel did
not include documentation to show compliance with FAR part 10 in the contract file to
support 1 of the 22 sole-source determinations, specifically contract
W911QY-10-C-0147.

For contract W911QY-10-C-0147, NCD contracting personnel included a discussion of
the market research conducted in the J&A, but the discussion did not identify the
companies they contacted to determine that only one contractor could meet the
Government’s requirements. NCD contracting personnel did not include any additional
information on market research in the contract file. Although NCD contracting personnel
did not document compliance with FAR part 10 in the contract file for contract
W911QY-10-C-0147, the exception cited for other than full and open competition was
supported. NCD contracting personnel awarded the acquisition citing the exception of
“only one responsible source and no other supplies or services will satisfy agency
requirements.” The cited exception was appropriate because the acquisition was for
annual testing of base-wide fire alarms and semiannual testing of Barracks fire alarm
devices and annual testing of all security alarms. Only the proposed contractor has a
proprietary testing format for the type of fire alarm system at Natick Soldier Systems
Center. This instance resulted from documentation omissions and did not result in
inadequate sole-source determinations; therefore, we do not consider the problem to be
material and are not making a recommendation. See Appendix E for additional
information on the market research NCD contracting personnel conducted.

NCD Contracting Personnel Awarded One
Noncompetitive Contract Without Proper Justification
NCD contracting personnel did not adequately justify the noncompetitive contract award
for 1 of the 22 noncompetitive contracts. NCD contracting personnel did not obtain
approval of the J&A before awarding the noncompetitive contract. In addition, NCD
contracting personnel did not conduct market research or adequately discuss why market
research was not conducted in the J&A for this noncompetitive contract.




                                           9

Contract W911QY-10-C-0154
NCD contracting personnel awarded contract W911QY-10-C-0154 before having a
signed and approved J&A. According to FAR 6.303, contracting officers must not
commence negotiations for noncompetitive contracts without justifying the actions in
writing, certifying the accuracy and completeness of the justification, and obtaining
appropriate approval for the justification. Additionally, FAR 6.303 permits the
contracting officer to prepare the J&A and have it approved within a reasonable time
after contract award for contracts awarded under FAR 6.302-2, “Unusual and Compelling
Urgency.” However, FAR 6.302-1, “Only One Responsible Source and No Other
Supplies or Services Will Satisfy Agency Requirements,” was the reason for the authority
cited, which required the support of an approved J&A before awarding the contract.

An NCD contracting officer and an attorney advisor from the Office of Chief Legal
Counsel provided conflicting reasons why the J&A was approved after the contract was
awarded. According to the NCD contracting officer, the J&A was created and approved
after the contract award because the Office of Chief Legal Counsel at Natick misplaced
the J&A during the legal proficiency review and the NCD contracting officer prepared
and signed a new J&A. However, according to the attorney advisor he was dissatisfied
with the market research conducted and refused to sign the J&A. According to the
attorney advisor after contracting personnel synopsized the contract action, he learned of
two additional organizations who could provide the services. The Office of Chief Legal
Counsel and contracting personnel held numerous meetings discussing the J&A and the
attorney advisor informed the contracting officer that he was dissatisfied with the efforts
put forth to conduct market research and he believed the contract should have been
competed. However, the contract was still awarded as a noncompetitive contract using
the FAR 6.302-1 authority even though there were two other known sources. The
Executive Director, U.S. Army Contracting Command - Aberdeen Proving Ground,
should determine whether the contracting officer responsible for the contract took
appropriate action in accordance with FAR 6.303-1 before awarding the noncompetitive
contract and determine if administrative actions are warranted. In addition, they should
emphasize the importance of appropriately and properly obtaining approvals and
justifications for noncompetitive contracts.

NCD contracting personnel awarded contract W911QY-10-C-0154 without conducting
market research or adequately discussing in the J&A why market research was not
conducted, as required by FAR 6.303-2. FAR 6.303-2 requires each J&A to contain a
description and the results of the market research conducted or, if market research was
not conducted, a reason why it was not conducted. The contracting officer’s description
of the market research conducted in the J&A stated, “None, due to the reasons in item #4
(above) Authority Cited.” The authority cited by the contracting officer, FAR 6.302-1,
“Only One Responsible Source No Other Supplies or Services Will Satisfy Agency
Requirements,” is not an adequate reason for not conducing market research. According
to the contracting officer, market research was not conducted because contract
W911QY-10-C-0154 was a follow-on contract and awarding a new contract would cause
a duplication of efforts and resources. However, through discussions with an attorney
advisor from the Office of Chief Legal Counsel at Natick, the attorney advisor explained

                                            10

he was dissatisfied with the efforts put forth to conduct market research after learning of
two additional contractors who could provide the services.

NCD Contracting Personnel Did Not Comply With
FAR 5.207 for 10 Noncompetitive Contracts
NCD contracting personnel did not follow applicable guidance by not including 1 or both
of the statements required by FAR 5.207 in the synopsis for 10 of the 22 noncompetitive
contracts and they could not locate 1 synopsis, possibly excluding sources that may be
interested in the noncompetitive contract. FAR 5.207(c)(14), 4 requires the synopsis of
noncompetitive contract actions to identify the intended source and a statement of the
reason justifying the lack of competition. FAR 5.207(c)(15)(ii), requires the synopsis of
noncompetitive contract actions using FAR 6.302-1 as the authority cited to include a
statement that “all responsible sources may submit a capability statement, proposal, or
quotation, which shall be considered by the agency.” Proposed contract actions made
under FAR 6.302-2 thru 6.302-7, FAR 5.207(c)(15)(i), requires the synopsis to include a
statement that “all responsible sources may submit a bid, proposal, or quotation which
shall be considered by the agency.” The file for contract W911QY-10-C-0194 did not
include a copy of the synopsis. NCD contracting personnel could not locate a copy of the
synopsis; therefore, we could not verify compliance with FAR 5.207. NCD contracting
personnel should include the statements required by FAR 5.207 in the synopsis of
contract actions made under FAR 6.302 to ensure that interested sources are aware of
actions they can take if interested in competing for the contract. Table 2 identifies the
10 noncompetitive contracts that did not include the statement or statements required by
FAR 5.207(c)(14) and/or FAR 5.207(c)(15).




4
  Effective May 31, 2011, the requirements at FAR 5.207(c)(14), FAR 5.207(c)(15)(i), and
FAR 5.207(c)(15)(ii) were moved to FAR 5.207(c)(15), FAR 5.207(c)(16)(i), and FAR 5.207(c)(16)(ii),
respectively.

                                                 11

Table 2. Contracts Not Compliant With FAR 5.207(c)(14) and/or FAR 5.207(c)(15)
     Contract          Synopsis did not include the    Synopsis did not include the
                         statement required by           statement required by
                            FAR 5.207(c)(14)                FAR 5.207(c)(15)
W911QY-10-C-0147                                                             √
W911QY-09-C-0007                                                             √
W911QY-10-C-0010                                                             √
W911QY-10-C-0117                         √
W911QY-10-C-0142                                                             √
W911QY-10-C-0143                                                             √
W911QY-09-C-0138                                                             √
W911QY-10-C-0154                         √                                   √
W911QY-10-C-0229                         √
W911QY-09-D-0008                                                             √


Conclusion
NCD contracting personnel adequately justified contracts as sole source for 21 of the
22 noncompetitive contracts we reviewed; however, contracting personnel did not
provide adequate justification for the noncompetitive award of 1 contract valued at about
$265,000. NCD contracting personnel did not obtain approval of the J&A before
awarding one of the noncompetitive contracts. In addition, NCD contracting personnel
did not conduct market research or adequately discuss why market research was not
conducted in the J&A for this noncompetitive contract.

NCD contracting personnel generally documented compliance with content requirements
in FAR 6.303-2 and obtained approval from the proper official as required by FAR 6.304
for the 22 J&As. In addition, NCD contracting personnel had an approved J&A before
awarding 21 noncompetitive contracts as required by FAR 6.303. NCD contracting
personnel did not include 1 or both of the statements required by FAR 5.207 in the
synopsis for 10 of the 22 noncompetitive contracts and could not locate 1 synopsis. NCD
contracting personnel developed a J&A template to improve uniformity and help
decrease the number of J&A problems as well as an electronic contract file template to
help standardize electronic contract files.




                                             12

Recommendations, Management Comments, and Our
Response
We recommend that the Executive Director, U.S. Army Contracting Command -
Aberdeen Proving Ground:

   1. Review the performance of the contracting officer who awarded the
noncompetitive contract, W911QY-10-C-0154, without legal approval to determine
whether administrative action is warranted.

U.S. Army Contracting Command - Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Executive
Director, Army Contracting Command-Aberdeen Proving Ground, agreed. He stated that
the Chief, Natick Contracting Division, acknowledged that the documentation in the
contract file was insufficient to depict actions taken by the contracting officer and that a
signed J&A was not in the file at the time of award. He also stated that no later than
March 30, 2012, the Chief, Natick Contracting Division, will institute a branch supervisor
to review future contract actions initiated by the contracting officer prior to contract
award until the supervisor is confident that documentation and review/approval
signatures are obtained and evidenced in all files.

Our Response
The Director’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.

   2. Emphasize the importance of obtaining the appropriate approvals and
properly justifying future noncompetitive contracts.

U.S. Army Contracting Command - Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Executive
Director, Army Contracting Command-Aberdeen Proving Ground, agreed. He further
stated that no later than March 30, 2012, the Chief, Natick Contracting Division, will
develop and distribute a memorandum to Natick Contracting Division contracting
personnel emphasizing the importance of obtaining appropriate approvals of justification
for future noncompetitive actions.

Our Response
The Director’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.

    3. Provide contracting personnel training or issue a memorandum on including
the statements required by Federal Acquisition Regulation 5.207, “Preparation and
Transmittal of Synopses,” in the synopsis of contract actions made under Federal
Acquisition Regulation 6.302, “Circumstances Permitting Other Than Full and
Open Competition.”


                                            13

U.S. Army Contracting Command - Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Executive
Director, Army Contracting Command-Aberdeen Proving Ground, agreed. He stated that
no later than March 30, 2012, the Chief, Natick Contracting Division, will develop and
distribute a memorandum to all Natick Contracting Division contracting personnel
emphasizing the importance of statements required by FAR 5.207 in the synopsis for
actions made under FAR 6.302. He also stated that the Chief, Natick Contracting
Division, will be conducting a review of this draft report with all Natick Contracting
Division Branch Chiefs to discuss the results and strategize for future compliance.

Our Response
The Director’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.




                                           14

Appendix A. Scope and Methodology
We conducted this performance audit from May 2011 through February 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Our scope was limited to noncompetitive contract awards during FY 2009 and FY 2010
to determine whether DoD noncompetitive contract awards were properly and adequately
justified as sole source. We excluded contracts that were awarded for national security
purposes, foreign military sales, classified contracts, or contracts that were improperly
coded in the FPDS-NG as noncompetitive.

In July 2011, DoD Office of Inspector General management decided the audit teams
would issue site reports under individual subprojects from the initial project. In October
2011, we reannounced the revised audit approach of issuing separate audit reports for
each audit site as well as the revised audit objective to determine whether DoD
noncompetitive contract awards were properly justified as sole source.

Universe and Sample Information
We used the FPDS-NG to identify noncompetitive contract actions issued by Military
Services and DoD agencies during FY 2009 and FY 2010. The queries were limited to
actions issued on contracts that were awarded during FY 2009 and FY 2010 and coded as
a “noncompetitive delivery order” or “not competed” in FPDS-NG. The queries also
excluded contract actions that received more than one offer as identified in FPDS-NG.
We then selected the four DoD Components with the highest dollar value of awards,
specifically the Army, Navy, Air Force, and the Defense Logistics Agency to identify
specific audit locations.

We focused our site selection on three sites for the Department of the Army that awarded
20 or more C and D type noncompetitive contracts and obligated approximately
$200 million or more during FY 2009 and FY 2010. Our site selection excluded sites
that were visited during the recent Government Accountability Office and Army Audit
Agency reviews on noncompetitive contract awards. In addition, we reviewed reports
issued by the Department of Defense Office of Inspector General, Acquisition and
Contract Management Directorate, from October 2008 to April 2011 that covered
acquisition and contracting issues and excluded sites that have been visited on numerous
occasions.

The initial data obtained from FPDS-NG resulted in a universe of 91 applicable contracts
for Research Laboratory Command, Natick. We requested 36 of the 91 contracts to
review during the site visit to NCD. We selected the sample of 36 contracts to include a
variety of different dollar amounts, products, services, contract types, and authorities
listed for other than full an open competition. We chose our sample by using many

                                            15

different factors and varieties to create a diverse sample; however, we did not review
contracts in our selection of 36 that were awarded for national security purposes, foreign
military sales, classified contracts, or contracts that were improperly coded in the
FPDS-NG as noncompetitive. In addition, we did not review contracts that were not truly
noncompetitive such as contracts that were competitive one bids or those contracts set
aside to develop small businesses.

Six contracts were excluded from our sample because they were national security
contracts and three contracts were excluded from our sample because they used the
authority cited at FAR Subpart 13.5, “Test Program for Certain Commercial Items.” In
addition, two contracts were excluded from our sample because they were miscoded as
noncompetitive in FPDS-NG and were competed before award, one contract was
excluded because it was miscoded in FPDS-NG and should have been coded as a Small
Business Innovative Research Program, and one contract file could not be located by
contracting personnel. Finally, one contract was excluded because it used simplified
acquisition procedures. Based on these exclusions, we reviewed 22 of the 36 contracts
requested. See Appendix C for additional details on the noncompetitive contracts we
reviewed.

Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:
  •	 FAR Part 5, “Publicizing Contract Actions,”
  •	 FAR Subpart 6.3, “Other Than Full and Open Competition,”
  •	 FAR Part 10, “Market Research,”
  •	 Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII

      number,” and

  •	 Army Federal Acquisition Regulation Supplement Part 5110, “Market Research.”

We interviewed contracting personnel at NCD, Natick, Massachusetts, to discuss
noncompetitive contract awards and to obtain information regarding the noncompetitive
contract files identified in our sample, specifically about the J&A and market research.
We also interviewed the competition advocate at NCD, Natick, Massachusetts, to gain an
understanding of the competition advocate’s responsibilities and role in noncompetitive
contract awards.

In addition, we interviewed an attorney advisor from the Office of Chief Legal Counsel,
Natick, Massachusetts, through teleconference to obtain additional information about a
J&A for one of the contracts reviewed in our sample.

Use of Computer-Processed Data
We relied on computer-processed data from the FPDS-NG to establish the initial universe
for this audit by identifying noncompetitive contract actions issued by Military Services
and DoD agencies. We also used the data from the FPDS-NG to help determine the
contracting organizations to visit and to perform the nonstatistical sample selection. In
addition, we used the Electronic Document Access database to obtain contract

                                           16

documentation, such as the contract and modifications to the contract before our site visit
to the NCD. To assess the accuracy of the computer-processed data, we verified the
FPDS-NG and Electronic Document Access data against official records at the
contracting activity. We determined that data obtained through the Electronic Document
Access database were sufficiently reliable to accomplish our audit objective when
compared with contract records. We determined that there were three miscodes within
the data reviewed from FPDS-NG when compared with contract records; however, we
used the FPDS-NG only to identify the universe, to help determine the contracting
organizations to visit, and to identify our nonstatistical sample.

Use of Technical Assistance
We held discussions with personnel from the Department of Defense Office of Inspector
General’s Quantitative Methods and Analysis Division. We determined that we would
use FPDS-NG data to select a nonstatistical sample of contracting activities and then use
FPDS-NG data to select a nonstatistical sample of noncompetitive contracts to review.
During our site visit, we worked with NCD contracting personnel to verify that the
selected contracts met the scope limitations of our review and to identify additional
contracts that did not meet the selection criteria. Our nonstatistical sample was limited to
specific contracts, and our results should not be projected across other NCD-issued or
Army-issued contracts.

Prior Coverage
During the last 5 years, the Government Accountability Office, DoD IG, and the
Department Army have issued four reports discussing noncompetitive contract awards.
Unrestricted DOD Office of Inspector General reports can be accessed over the Internet
at http://www.dodig.mil. Unrestricted Government Accountability Office reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted Army reports can be
accessed from .mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.

Government Accountability Office
Government Accountability Office Report No. GAO-12-263, “Improved Policies and
Tools Could Help Increase Competition on DOD’s National Security Exception
Procurements,” January 13, 2012

Government Accountability Office Report No. GAO-10-833, “Opportunities Exist to
Increase Competition and Assess Reasons When Only One Offer Is Received,”
July 26, 2010

DoD IG
DoD Office of Inspector General Report No. DODIG-2012-042, “Naval Air Systems
Command Lakehurst Contracts Awarded Without Competition Were Properly Justified,”
January 20, 2012




                                            17

Army
Army Audit Agency Report No. A-2011-0002-ALC, “Extent of Competition in Army
Contracting,” October 12, 2010




                                      18

Appendix B. Federal Acquisition Regulation
Criteria
FAR Subpart 6.3, “Other Than Full and Open Competition”
FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. Contracting without full and open competition is a violation of statue,
such as Section 2304, title 10, United States Code, unless permitted by an exception
provided in FAR 6.302, “Circumstances Permitting Other Than Full and Open
Competition.” FAR 6.302 lists seven exceptions for contracting without full and open
competition:

   •	 FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
      Will Satisfy Agency Requirements,”
   •	 FAR 6.302-2, “Unusual and Compelling Urgency,”
   •	 FAR 6.302-3, “Industrial Mobilization; Engineering, Developmental, or Research
      Capability; or Expert Services,”
   •	 FAR 6.302-4, “International Agreement,”
   •	 FAR 6.302-5, “Authorized or Required by Statute,”
   •	 FAR 6.302-6, “National Security,” and
   •	 FAR 6.302-7, “Public Interest.”

A contracting officer must not begin negotiations for or award a noncompetitive contract
without providing full and open competition unless the contracting officer justifies the
use of such action in writing, certifies the accuracy and completeness of the justification,
and obtains approval of the justification. FAR 6.303-2, “Content,” requires each
justification to contain sufficient facts and rationale to justify the use of the authority
cited. At a minimum, each justification must contain the following.

   •	 The name of the agency and contracting activity and identification of the 

      document as a “Justification for other than full and open competition.”

   •	 A description of the action being approved.
   •	 A description of the supplies or services required to meet the agency’s needs
      including the estimated value.
   •	 The statutory authority permitting other than full and open competition.
   •	 A demonstration that the contractor’s unique qualifications or the nature of the
      acquisition requires the use of the authority cited.
   •	 A description of the efforts made to ensure offers are submitted from as many
      sources as practicable.
   •	 The contracting officer’s determination that the cost to the Government will be
      fair and reasonable.
   •	 A description and the results of the market research conducted or, if market
      research was not conducted, a reason it was not conducted.
   •	 Any other facts supporting the use of other than full and open competition.

                                             19

    •	 A listing or sources that expressed written interest in the acquisition.
    •	 A statement of the actions the agency may take to overcome any barriers to
       competition before a subsequent acquisition.
    •	 The contracting officer’s certification that the justification is accurate and 

       complete to the best of his or her knowledge and belief.


FAR 6.304, “Approval of the Justification,” identifies the person responsible for
approving the J&A based on the value of the proposed contract. * The contracting officer
approves the J&A for a proposed contract not exceeding $550,000. The competition
advocate approves the J&A for a proposed contract of more than $550,000 but not
exceeding $11.5 million. A general or flag officer if a member of the military, or a
civilian in a position above GS-15 under the general schedule approves the J&A for a
proposed contract more than $11.5 million but not exceeding $78.5 million. The senior
procurement executive of the agency approves the J&A for a proposed contract over
$78.5 million.

FAR Subpart 5.2, “Synopses of Proposed Contract Actions”
FAR 5.201, “General,” requires agencies to provide a synopsis of proposed contract
actions for the acquisition of supplies and services. The contracting officer must submit
the synopsis to the Governmentwide Point of Entry that can be accessed on the Internet at
https://www.fedbizopps.gov. FAR 5.203, “Publicizing and Response Time,” requires the
synopsis to be published for at least 15 days before the issuance of a solicitation or
proposed contract action; however, the contracting officer may establish a shorter period
of time for commercial items. Each synopsis submitted to the Governmentwide Point of
Entry must include certain data elements as applicable, such as the date of the synopsis,
the closing response date, a proposed solicitation number, a description, and the point of
contact or contracting officer. In addition, FAR 5.202, “Exceptions,” lists circumstances
when the contracting officer does not need to submit a synopsis. Examples of instances
when the contracting officer does not need to submit a synopsis include the following.
     •	 The proposed contract action is made under FAR 6.302-2, and the Government
        would be seriously injured if the agency complied with time periods specified by
        FAR 5.203.
     •	 The proposed contract action is made under FAR 6.302-3 or FAR 6.302-5 with
        regard to brand name commercial items authorized for resale.
     •	 The proposed contract action is made under FAR 6.302-3 with regard to the
        services of an expert to support the Government in a litigation or dispute.

Contracting officers are required by FAR 5.207, “Preparation and Transmittal of
Synopses,” to include statements in the synopses of noncompetitive contract actions
stating their intent to award a noncompetitive contract and notifying interested sources of
actions they can take if interested in the noncompetitive contract. FAR 5.207(c)(14)


*
 On October 1, 2010, the approval thresholds increased. Our review was limited to noncompetitive
contract awards during FY 2009 and FY 2010; therefore, we used the approval thresholds in place during
FY 2009 and FY 2010.

                                                  20

requires the synopsis of noncompetitive contract actions to identify the intended source
and a statement of the reason justifying the lack of competition. FAR 5.207(c)(15)(ii)
requires the synopsis of noncompetitive contract actions using FAR 6.302-1 as the
authority cited to include a statement that all responsible sources may submit a capability
statement, proposal, or quotation, which shall be considered by the agency. For other
proposed contract actions made under FAR 6.302, FAR 5.207(c)(15)(i) requires the
synopsis to include a statement that all responsible sources may submit a bid, proposal, or
quotation which shall be considered by the agency.

FAR Part 10, “Market Research”
FAR part 10 prescribes policies and procedures for conducting market research to arrive
at the most suitable approach for acquiring, distributing, and supporting supplies and
services. Agencies are required to conduct market research appropriate to the
circumstance before soliciting offers for acquisitions with an estimated value over the
simplified acquisition threshold. Agencies are required to use the results of market
research to determine if there are appropriate sources or commercial items capable of
satisfying the agency’s requirements. The extent of market research the agencies
conducts varies depending on factors such as urgency, estimated dollar value,
complexity, and past experience. The contracting officer may use market research
conducted within 18 months before the award of any task or delivery order if the
information is still current, accurate, and relevant. Agencies use market research
techniques, such as contacting knowledgeable individuals in Government and industry,
reviewing results of recent market research, publishing formal requests for information,
querying database, participating in on-line communication, obtaining source lists of
similar items, and reviewing available product literature. Agencies should document the
results of market research in a manner appropriate to the size and complexity of the
acquisition.




                                            21

           Appendix C. Noncompetitive Contracts Reviewed
                       Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                    Product                                                                                                 Contract
                                                                                                               Contract
          Contract Number             or                        Description                     Award Date                Authority Cited    Award
                                                                                                                Type
                                    Service                                                                                                 Amount
   1     W911QY-10-C-0147            Service      Annual testing of base-wide fire alarms          8/3/2010      FFP        FAR 6.302-1     $     52,000
                                                    Hampton University Proton Therapy
   2     W911QY-09-C-0076            Product                                                       4/22/2009     FFP        FAR 6.302-1     7,999,258
                                                           Institute equipment
   3     W911QY-09-C-0004            Service                  Testing software                    12/18/2008     FFP        FAR 6.302-1     2,243,610
                                                       Study of potential nutritional
                                                      approaches for protection from
   4     W911QY-10-C-0010            Service                                                      12/16/2009     Cost       FAR 6.302-1         500,000
                                                      neurotrauma injuries to military
                                                    personnel deployed to conflict areas
                                                   Warehousing of and logistical services
   5     W911QY-09-C-0007            Service                                                      11/13/2008     FFP        FAR 6.302-1         815,479
                                                   for the U.S. Army’s dissipating pads
                                                  Research study for investigation of burn
                                                     threats at the finger scale using an
   6     W911QY-10-C-0106            Service      instrumented manikin and the impact of           3/31/2010     FFP        FAR 6.302-1         164,664
                                                     design of protective gloves for the
                                                                    soldier
                                                   Research study to develop an analysis
   7     W911QY-10-C-0231            Service      method and report to support hydration           9/30/2010     FFP        FAR 6.302-1         119,559
                                                        status monitoring in the field
                                                   Joint Precision Aerial Delivery System
   8     W911QY-10-C-0226            Product                                                       9/28/2010     FFP        FAR 6.302-2     2,981,595
                                                           2K decelerator systems
Acronyms and definitions used throughout the Appendix C are defined on the final page of Appendix C.




                                                                                       22
           Appendix C. Noncompetitive Contracts Reviewed (cont’d)
                       Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                    Product                                                                                                 Contract
                                                                                                               Contract
          Contract Number             or                        Description                     Award Date                Authority Cited    Award
                                                                                                                Type
                                    Service                                                                                                 Amount
   9     W911QY-09-C-0129            Product                Brackets and mounts                    8/24/2009     FFP        FAR 6.302-1     $ 203,387
                                                    Research study to estimate the direct
                                                     costs to the U.S. Army of injuries
  10     W911QY-10-C-0194            Service                                                       9/23/2010     Cost       FAR 6.302-3      179,763
                                                  occurring during Basic Combat Training

                                                    Commercial off-the-shelf collapsible
  11     W911QY-10-C-0117            Product                                                       4/14/2010     FFP        FAR 6.302-1      326,629
                                                            shelter products
  12     W911QY-10-C-0142            Product                       Apparel                         8/13/2010     FFP        FAR 6.302-1     1,741,215
                                                       Flame Resistant Army Combat
  13     W911QY-10-C-0143            Product                                                       8/20/2010     FFP        FAR 6.302-1     1,635,375
                                                                 Uniforms
                                                  Research efforts of the cGMP Somatic
                                                  Cell Processing Facility, part of the Cell
  14     W911QY-09-C-0008            Service      Transplant Center that is ongoing in the         1/6/2009      FFP        FAR 6.302-1     1,370,740
                                                  Diabetes Research Institute, University
                                                                 of Miami
  15     W911QY-09-C-0020            Product       Flame resistant army combat uniform            12/18/2008     FFP        FAR 6.302-2     5,872,400
  16     W911QY-09-C-0138            Product                     Microscope                        8/25/2009     FFP        FAR 6.302-1      459,872
  17     W911QY-10-C-0154            Service              Master planning services                 8/16/2010     FFP        FAR 6.302-1      265,250
                                                   To provide a secured facility, within a
  18     W911QY-10-C-0229            Product                                                       9/29/2010     FFP        FAR 6.302-1      101,935
                                                             secured building
Acronyms and definitions used throughout the Appendix C are defined on the final page of Appendix C.




                                                                                       23
Appendix C. Noncompetitive Contracts Reviewed (cont’d)
                  Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                              Product                                                                                                     Contract
                                                                                                             Contract
       Contract Number          or                        Description                     Award Date                    Authority Cited    Award
                                                                                                              Type
                              Service                                                                                                     Amount
                                            Cleaning services for soiled Interceptor
 19    W911QY-10-C-0165        Service                                                      8/2/2010             FFP      FAR 6.302-2     $ 549,735
                                                      Body Armor vests
 20    W911QY-09-D-0008        Service                  Logistic services                   2/25/2009            FFP      FAR 6.302-1      3,832,980
                                             Services to formulate and test 5 jerky-
 21    W911QY-10-C-0101        Service                                                      6/18/2010            FFP      FAR 6.302-1       70,526
                                                            like meats.
                                             Research support services, other direct
 22    W911QY-09-C-0098        Services                                                     9/8/2009             FFP      FAR 6.302-3      118,750
                                             costs travel, and manpower reporting
       Total Reviewed                                                                                                                     $31,604,772
Cost           Cost Reimbursement
FAR 6.302-1    Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency Requirements
FAR 6.302-2    Unusual and Compelling Urgency
FAR 6.302-3    Industrial mobilization; engineering, developmental, or research capability; or expert services
FFP            Firm-Fixed-Price




                                                                                 24

Appendix D. Adequate Justification and Approvals
            Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                                                     Justification & Approval   Justification & Approval
                         Content Requirements     Authority Cited
     Contract Number                                                   Approved by Proper           Approved Before
                                 Met             Appropriately Met
                                                                             Personnel              Contract Award
1    W911QY-10-C-0147                                      √                    √                          √

2    W911QY-09-C-0076                                      √                    √                          √

3    W911QY-09-C-0004             √                        √                    √                          √

4    W911QY-10-C-0010                                      √                    √                          √

5    W911QY-09-C-0007                                      √                    √                          √

6    W911QY-09-C-0106             √                        √                    √                          √

7    W911QY-10-C-0231             √                        √                    √                          √

8    W911QY-10-C-0226             √                        √                    √                          √

9    W911QY-09-C-0129             √                        √                    √                          √

10   W911QY-10-C-0194             √                        √                    √                          √

11   W911QY-10-C-0117                                      √                    √                          √

12   W911QY-10-C-0142                                      √                    √                          √

13   W911QY-10-C-0143                                      √                    √                          √




                                                     25

Appendix D. Adequate Justification and Approvals (cont’d)
             Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                                                     Justification & Approval   Justification & Approval
                        Content Requirements      Authority Cited
     Contract Number                                                   Approved by Proper           Approved Before
                                Met              Appropriately Met
                                                                             Personnel              Contract Award
14   W911QY-09-C-0008            √                      √                       √                          √

15   W911QY-09-C-0020            √                      √                       √                          √

16   W911QY-09-C-0138                                   √                       √                          √

17   W911QY-10-C-0154                                                           √

18   W911QY-10-C-0229                                   √                       √                          √

19   W911QY-10-C-0165            √                      √                       √                          √

20   W911QY-09-D-0008                                   √                       √                          √

21   W911QY-10-C-0101            √                      √                       √                          √

22   W911QY-09-C-0098            √                      √                       √                          √




                                                      26

               Appendix E. Market Research Conducted
                            Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                                                                                         Results of Market
                                         Estimated                                                                                                      Market Research
                                                                                                      Research or Justification        Supporting
             Contract Number            Value on the           Specific Steps Performed                                                                   Considered
                                                                                                        for Not Conducting            Documentation
                                           J&A                                                                                                             Adequate
                                                                                                         Market Research
                                                                Canvassed local companies             No companies were available
                                                                                                                                      Market research
                                                              capable of providing the type of        with sufficient experience to
      1      W911QY-10-C-0147            $276,075.05                                                                                  document and           Yes1
                                                               work, but specific companies           perform the unique functions
                                                                                                                                          J&A
                                                               contacted were not identified              required for this work
                                                                                                        The contractor is the only
                                                                                                        provider of the gantry and
                                                                                                             magnet subsystem
                                                                                                      components that are integral    Memorandum and
      2      W911QY-09-C-0076           $7,999,257.60          No market research conducted                                                                  Yes2
                                                                                                        to the Proteus 235 system,        J&A
                                                                                                      and no other manufacturer's
                                                                                                       components are compatible
                                                                                                         with the current system.
                                                             Performed an environmental scan
                                                              of currently available sources in
                                                             the market, searched the internet,
      3      W911QY-09-C-0004           $2,243,610.00                                                 No other sources were found          J&A                Yes
                                                             reviewed Government databases,
                                                                and obtained information on
                                                             patents held by other contractors
1
    Although the market research conducted was considered adequate, the market research was not adequately documented.
2
    Although market research was not conducted, the rationale provided for not conducting research was considered appropriate.




                                                                                             27
     Appendix E. Market Research Conducted (cont’d)
              Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                                                                Results of Market
                        Estimated                                                  Research or                                 Market Research
                                                                                                             Supporting
    Contract Number    Value on the      Specific Steps Performed              Justification for Not                             Considered
                                                                                                            Documentation
                          J&A                                                  Conducting Market                                  Adequate
                                                                                     Research
                                       Internet searches within academia
                                                                             None of the sources were
                                       and commercial sources. Review
                                                                              able to meet the unique
4   W911QY-10-C-0010   $1,012,776.00      of various related databases.                                          J&A                 Yes
                                       Searches were done at two major
                                                                             levels of performance or
                                                  conferences                    schedule required
                                                                             No other warehouse facility
                                       The contract specialist and project   was found that has the same
                                                                                                               Acquisition
5   W911QY-09-C-0007   $815,479.00     officer conducted market research      square footage or the same                             Yes
                                                                                                            Strategy and J&A
                                           in concert with one another        level of safety appropriate
                                                                                  for storing the pads
                                                                                  Two responses were
                                       A sources sought announcement         received. One response was
                                                                                                            Market research
                                        was published and contacted                not a certified test
6   W911QY-09-C-0106   $164,664.00                                                                          document and             Yes
                                        experts with understanding of          laboratory and the second
                                                                                                                J&A
                                       scientific capabilities available        received the sole-source
                                                                                         award
                                                                                 No other sources with
                                           Exhaustive search of both                                        Market Research
                                                                               viable technical solutions
7   W911QY-10-C-0231   $119,059.00      scrutinized and non-scrutinized                                      Document and            Yes
                                                                              have expressed an interest
                                       hydration assessment technologies                                         J&A
                                                                                       in writing




                                                                     28

      Appendix E. Market Research Conducted (cont’d)
               Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                                                                Results of Market
                         Estimated                                                 Research or                                    Market Research
                                                                                                               Supporting
     Contract Number    Value on the      Specific Steps Performed             Justification for Not                                Considered
                                                                                                              Documentation
                           J&A                                                 Conducting Market                                     Adequate
                                                                                     Research
                                                                             No other expendable and/or
                                          A request for information was      low-cost decelerator system
                                        publicized, and the responses were    is commercially available
8    W911QY-10-C-0226   $4,130,000.00                                                                               J&A                 Yes
                                        reviewed with a focus on potential   that is capable of satisfying
                                             to meet the requirements            the performance and
                                                                                delivery requirements
                                         An internet search of compatible
                                                                             The contractor was the only
                                         with current operator equipment.
                                                                              vendor that manufactures
9    W911QY-09-C-0129   $203,387.25     Several trade shows were attended                                           J&A                 Yes
                                                                              the Night Vision Goggle
                                           to determine if any vendors
                                                                                    accessories
                                          produce an equivalent system
                                                                              No other equally qualified
                                         Contacted subject matter experts
                                                                                organization has been         J&A and follow up
10   W911QY-10-C-0194   $274,337.00          and issued a request for                                                                   Yes
                                                                             identified that has the skill-        email
                                                   information
                                                                             sets needed for this project
                                          A request for information was
                                                                               12 companies that have
                                           issued and the results were
                                                                               products available that
11   W911QY-10-C-0117   $1,900,000.00     organized and reviewed by a                                               J&A                 Yes
                                                                                could meet the basic
                                           team with over 90 years of
                                                                                    requirements
                                           experience and knowledge




                                                                     29

             Appendix E. Market Research Conducted (cont’d)
                          Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                                                                                           Results of Market
                                          Estimated                                                                                                                  Market Research
                                                                                                        Research or Justification            Supporting
           Contract Number               Value on the            Specific Steps Performed                                                                              Considered
                                                                                                          for Not Conducting                Documentation
                                            J&A                                                                                                                         Adequate
                                                                                                           Market Research
                                                                                                        13 manufacturers interested
                                                                A request for information was
                                                                                                          in producing the Flame
                                                               issued to solicit industry for the
                                                                                                         Resistant Army Combat              Market research
                                                                 availability of interested and
    12     W911QY-10-C-0142              $1,784,947.50                                                  Uniform. Only five of these         memorandum and                    Yes
                                                                 responsible providers of the
                                                                                                        are currently producing the              J&A
                                                               Flame Resistant Army Combat
                                                                                                         product that can meet the
                                                                            Uniform
                                                                                                               requirement3
                                                                                                        13 manufacturers interested
                                                                A request for information was
                                                                                                          in producing the Flame
                                                               issued to solicit industry for the
                                                                                                         Resistant Army Combat.             Market research
                                                                 availability of interested and
    13     W911QY-10-C-0143              $1,411,016.25                                                     Only five of these are           memorandum and                    Yes
                                                                 responsible providers of the
                                                                                                          currently producing the                J&A
                                                               Flame Resistant Army Combat
                                                                                                         product that can meet the
                                                                            Uniform
                                                                                                               requirement3
                                                                 In-depth Internet searches,
                                                              review of government databases,           No other sources were found
                                                               obtained information on patents             to have the functional              Acquisition
    14     W911QY-09-C-0008              $1,370,740.00                                                                                                                        Yes
                                                               held by current contractors, and         capabilities and expertise in       Strategy and J&A
                                                              surveyed the market for products                     the area
                                                              that can meet their requirements
3
  The five vendors selected for this action can meet this bridge buy requirement by delivering 18,375 coats and or trousers each per month. No other manufacturer can meet
this required schedule as they would have to set up a production line and go through first article testing approval to ensure the garments meets rigid safety requirements as this
is a flame resistant, life-saving garment. Natick contracting personnel awarded five sole-source contracts at the maximum production levels.




                                                                                              30

               Appendix E. Market Research Conducted (cont’d)
                            Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                                                                                          Results of Market
                                          Estimated                                                                                                        Market Research
                                                                                                       Research or Justification          Supporting
             Contract Number             Value on the           Specific Steps Performed                                                                     Considered
                                                                                                         for Not Conducting              Documentation
                                            J&A                                                                                                               Adequate
                                                                                                          Market Research
                                                                                                        To date, no other contractor
                                                                 Market research was being                                               J&A and follow
      15     W911QY-09-C-0020           $10,918,400.00                                                    can meet the immediate                                 Yes
                                                               conducted on an ongoing basis                                               up email
                                                                                                                requirement
                                                                                                      The contractor was determined
                                                              Review of three main companies
      16     W911QY-09-C-0138             $459,872.53                                                   to be the only system to the          J&A                Yes
                                                              and their microscope capabilities
                                                                                                         meet Government’s needs
                                                                                                          No market research was
                                                                                                       performed due to the amount
                                                                                                      of time, effort and resources it
                                                                                                           would take for another        Market Research
      17     W911QY-10-C-0154             $256,250.00          No market research conducted           contractor to come up to speed      Document and           No
                                                                                                          on knowledge gained on              J&A
                                                                                                      critical planning steps that can
                                                                                                       only be obtained from having
                                                                                                      performed the work in Phase I.
                                                                                                      There was no other acceptable
      18     W911QY-10-C-0229             $545,893.00          No market research conducted                                                   J&A               Yes4
                                                                                                         building available for use
4
    Although market research was not conducted, the rationale provided for not conducting research was considered appropriate.




                                                                                             31

               Appendix E. Market Research Conducted (cont’d)
                            Noncompetitive Contracts Awarded by Natick Contracting Division from FY 2009-FY 2010
                                                                                                         Results of Market
                                          Estimated                                                                                                     Market Research
                                                                                                      Research or Justification          Supporting
             Contract Number             Value on the           Specific Steps Performed                                                                  Considered
                                                                                                        for Not Conducting              Documentation
                                            J&A                                                                                                            Adequate
                                                                                                         Market Research
                                                               An improved study was done in
                                                                   which different cleaning
                                                                technologies were evaluated.
                                                                                                      The contractor was identified
                                                              Internet searches were conducted
                                                                                                        as the only viable vendor
      19     W911QY-10-C-0165             $550,000.00         to survey commercial cleaners in                                              J&A               Yes
                                                                                                       that could readily fulfill the
                                                                 the U.S that have computer-
                                                                                                        Army’s immediate needs
                                                                   controlled wet cleaning
                                                               capabilities to serve the Army’s
                                                                             needs
                                                                                                      The contractor manufactures
                                                               No market research conducted           the items to be services and
      20     W911QY-09-D-0008            $3,128,276.00                                                                                      J&A              Yes5
                                                                                                      hasn't made any proprietary
                                                                                                        technical data available.
                                                              A market survey was conducted.
                                                             Internet searches were conducted
                                                                                                        No matches available to
      21     W911QY-10-C-0101            $1,565,747.26          within foreign academia and                                                 J&A               Yes
                                                                                                         meet the requirements
                                                                 commercial sources to find
                                                                    potential candidates
                                                                                                       No other contractor would
                                                                                                      have the intimate knowledge
      22     W911QY-09-C-0098             $237,500.00          No market research conducted             required to analyze and             J&A              Yes5
                                                                                                      compile the data described in
                                                                                                        the Statement of Work.
5
    Although market research was not conducted, the rationale provided for not conducting research was considered appropriate.


                                                                                             32
Department of the Army Comments






                  Click to add JPEG file




                                 33
Click to add JPEG file




               34
Click to add JPEG file




               35
Click to add JPEG file




               36
Click to add JPEG file




               37
